No. 20-542
IN THE SUPREME COURT OF THE UNITED STATES

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF STATE,
ET AL., and PENNSYLVANIA DEMOCRATIC PARTY,
Respondents.

On A Petition For Writ Of Certiorari To The Supreme Court Of Pennsylvania
CONSENT TO MOTION OF DONALD J. TRUMP FOR PRESIDENT, INC. FOR
LEAVE TO INTERVENE AS PETITIONER
Petitioner Republican Party of Pennsylvania (RPP) consents to the Motion of
Donald J. Trump for President, Inc. for Leave to Intervene as Petitioner in the abovecaptioned action and in Scarnati v. Pennsylvania Democratic Party, No. 20-574. For
the reasons stated by Movant, RPP agrees that the Motion should be granted.

1

Respectfully submitted,

/s/ John M. Gore
JOHN M. GORE
Counsel of Record
ALEX POTAPOV
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Phone: (202) 879-3939
jmgore@jonesday.com

Date: November 5, 2020

KATHLEEN GALLAGHER
RUSSELL D. GIANCOLA
PORTER WRIGHT MORRIS
& ARTHUR LLP
6 PPG Place, Third Floor
Pittsburgh, PA 15222
Phone: (412) 235-4500
Counsel for Petitioner

2

